20-7644

No:

Supreme Coun, U.S.
FILED

DEC 2 3 2020
OFFICE OF THE CLERK

IN THE

SUPREME COURT OF THE UNITED STATES
PETITIONER

SKIP LEE HANSEN, Pro Se
V.

RESPONDENT

COMMONWEALTH OF KENTUCKY

On Petition For Writ of Certiorari
To The Kentucky Court Of appeals

PETITION FOR WRIT OF CERTIORARI

ORIGINAL

Skip Lee Hansen, Petitioner, Pro Se
Roederer Correctional Complex
P.O. Box 69
La Grange, KY 40031
(502) 222-0173

I

>

QUESTIONS PRESENTED
Did the Kentucky Court of Appeals allow Mr. Hansen’s right to present a full
and complete defense, which is protected by the Sixth and Fourteenth Amendments
to the United States Constitution, be violated by the McCracken Circuit Court when
the Court prohibited defense counsel from questioning multiple witnesses concerning
the alleged victim’s sending nude photos to other people, after the Commonwealth
opened the door to this evidence?

1

{

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.
RELATED CASES
Commonwealth v. Hansen, No. 18-CR-221, McCracken Circuit Court,
Judgement Entered January 16, 2019.
Hansen v. Commonwealth, No. 2019-CA-132-MR, Kentucky Court of
. Appeals, Opinion Rendered July 31, 2020.
TABLE OF CONTENTS
Questions Presented

1

List of Parties.

2

_v_Relatedj3ases

2

. Table of Contents

2

Cited Authorities

2-5

Jurisdiction

5

Constitutional and Statutory Provisions Involved
Statement of the case

5-7
7-12

Reasons For Granting The Petition

13*22

Conclusion

22-23

Appendix

23-24
CITED AUTHORITIES

28 U.S.C. § 1257(a)

5

United States Supreme Court Order Entered March 19, 2020

5

2

\

/
'i

Sixth Amendment to the United States Constitution
Fourteenth Amendment to the United States Constitution
Kentucky Rules of Evidence, Rule 412
Rules of the Supreme Court of the United States, Rule 10
Kentucky Revised Statutes § 510.145

5, 13, 15, 17, 20-22
5-6, 13, 15, 17, 22
6-7, 12, 14-15
13
:. 15

Olden v. Kentucky, 488 U.S. 227 (1988)

15

State v. Wright, 320 Conn. 781, 816-17,(2016)...

15

Roberts v. State, 510 So. 2d 885, 892 (Fla. 1987)

16

State v. Guthrie, 518 S.E. 2d 83, 94 (1999)

16

People v. Hill, 683 N.E. 2d 188, 191 (1997)........

16

Commonwealth v. Polk, 965 N.E. 2d 815 (2012)

16

State v. Johnson, 944 P. 2d 869 (1997)

16

State v. Grovenstein, 530 S.E. 2d 406, 409 (Ct. App. 2000)

16

State v. Lang, 403 S.E. 2d 677, 678 (Ct. App. 1991)

16

Davis v. Alaska, 415 U.S. 308 (1974)

15, 17,-20

State v. Younger, 295 S.E. 2d 453, 456 (1982)

16-17

State v. Jacques, 558 A. 2d 706, 708 (1989)....

17

State v. McCoy, 274 S.C. 70, 72 (1979)............

17

Smith v. Illinois, 390 U.S. 129, 131 (1968)

17

Pointer v. Texas, 380 U.S. 400, 403 (1965)....

17

People v. Stanaway, 521 N.W. 2d 557 (1994)

17-18

Brookhart v. Janis, 384 U.S. 1, 3, (1966)......

18

3

(

Rock v. Arkansas, 483 U.S. 44, 55 (1987)

18

Chambers v. Mississippi, 410 U.S. 284, 302, (1973)

18

Michigan v. Lucas, 500 U.S. 145 (1991)

18

State v. Gaudet, 97 A. 3d 640 (2014)

18

State v. Mazzaglia, 169 N.H. 489, 495 (2016)

18*19

State v. Degree, 322 N.C. 302, 306 (1988)

19

Commonwealth v. Beverly, 52 Va. Cir. 255, 257 (2000)

19

Perry v. Commonwealth, 390 S.W. 3d 128 (Ky. 2012)

19-20

Holmes v. South Carolina, 547 U.S. 319, 324 (2006)

19-20

Dennis v. Commonwealth, 306 S.W. 3d 466, 473*474 (Ky. 2010)

19-20

United States v. Scheffer, 523 U.S. 303, 308 (1998)

19*20

Delaware v. Van Arsdall, 475 U.S. 673, 679 (1986)

20

White v. Coplan, 399 F. 3d 18, 24 (1st Cir. 2005)

20

Barbe v. McBride, 521 F. 3d 443 (4th Cir. 2008)

20

LaJoie v. Thompson, 217 F. 3d 663 (9th Cir. 2000)

20

D. W.H. V State 103 So. 3d 850 (2012)

20

Johnson v. Moore, 472 F. Supp. 2d 1344 (2007)

20-21

People v. Williams, 55 Ill. App. 3d 752 (1977)

21

State v. Colburn, 2016 MT 41 (2016)

21

Sussman v. Jenkins, 636 F. 3d 329 (2011)

21.

State v. Shaw, 312 Conn. 85 (2014)

21

4

\

Alexander Hamilton, Federalist No. 22, December 14, 1787

23

JURISDICTION
The Kentucky Court of Appeals Affirmed Mr. Hansen’s conviction on July 31,
2020. The jurisdiction of this Court is invoked under 28 U.S.C. §1257(a) which
states,
“Final judgements or decrees rendered by the highest court
of a state in which a decision could be had, may be reviewed
by the Supreme Court by writ of certiorari where the
validity of a treaty or statute of the United States is drawn
in question or where the validity of a statute of any state is
drawn in question on the ground of its being repugnant to
the Constitution, treaties, or laws of the United States, or
where any title, right, privilege, or immunity is specially
set up or claimed under the Constitution or the treaties or
statutes of, or any commission held or authority exercised
under, the United States.”
*
This Petition is timely filed pursuant to this Court’s Order Entered March 19
2020, extending the deadline to file a Petition for a Writ of Certiorari from 90 to 150
days.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Sixth Amendment to the United States Constitution
In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury of
the State and district wherein the crime shall have been
committed, which district shall have been previously
ascertained by law, and to be informed of the nature and
cause of the accusation; to be confronted with the witnesses
against him! to have compulsory process for obtaining
witnesses in his favor, and to have the Assistance of
Counsel for his defense.
. Fourteenth Amendment to the United States Constitution

5

All persons born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the United
States and of the State wherein they reside. No State shall
make or enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor shall any
State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.
Kentucky Rules of Evidence Rule 412
(a) Evidence generally inadmissible. The following
evidence is not admissible in any civil or criminal
proceeding involving alleged sexual misconduct except as
provided in subsections (b) and (c)- (l) Evidence offered to
prove that any alleged victim engaged in other sexual .
behavior. (2) Evidence offered to prove any alleged victim’s .
sexual predisposition, (b) Exceptions- (1) In a criminal case,
the following evidence is admissible, if otherwise
admissible under these rules- (A) evidence of specific
instances of sexual behavior by the. alleged victim offered
to prove that a person other than the accused was the
source of semen, injury, .or other physical,evidence; (B) .
evidence of specific instances of sexual behavior by the
alleged victim with respect to the person accused of the .
sexual misconduct offered by the accused to prove consent
or by the prosecution; and (C) any other evidence directly
pertaining to the offense charged. (2) In a civil case,
evidence offered to prove the sexual behavior or sexual ..
predisposition of any alleged victim is admissible if it is
otherwise admissible under, these rules and its probative
value substantially outweighs the danger to harm of any
victim and of unfair prejudice to any party. Evidence of an
alleged victim’s reputation is admissible only if it has been
placed in controversy by the alleged victim, (c) Procedure
to determine admissibility, (l) A party intending to offer
evidence under subdivision (b) must: (A) file a written
motion at least fourteen (14) days before trial specifically
describing the evidence and stating the purpose for which
it is offered unless the court, for good cause requires a
different time for filing or permits filing during trial; and
(B) serve the motion on all parties and notify the alleged
victim or, when appropriate, the alleged victim’s guardian
or representative. (2) Before admitting evidence under this

6

rule the court must conduct a hearing in camera and afford
the victim and parties a right to attend and be heard. The
motion, related papers, and the record of the hearing must
be sealed and remain under seal unless the court orders
otherwise.
STATEMENT OF THE CASE
The Petitioner, Mr. Hansen had known the alleged victim, Anna Townsend,
since she was four years old and as he dated her mother Sariah Cooper for ten years
he was like a father to Anna. Mr. Hansen and Sariah had an on and off relationship
which had recently been stressed due to continuing arguments centered around both
of them seeing other people. On January 17, 2018 Sariah and Mr. Hansen were
arguing yet again.

'

'

. •

.

-

. -

• - '* •

■ Anna had spent the night at Mr. Hansen’s residence that night which was a
common occurrence and when she returned home, her mother Sariah began snooping
through her phone. Sariah said she wanted to see if Mr. Hansen had been saying
negative things about her to Anna. However, Anna had been at Mr. Hansen’s
residence the previous night so there would have been no logical reason for them to
carry on conversations via messages on their cell phones. Nor would there be any
logical reason for her to purposely send a nude photo of herself from her phone to his.
While searching through Anna’s phone Sariah found a nude photo of Anna that
she mistakenly sent to Mr. Hansen’s phone sometime in the middle of the night.
Sariah immediately went to the police to report this.1

1 Although, Sariah made other claims of inappropriate conduct Mr. Hansen allegedly committed
against Anna over two years prior, which she chose not to report until the discovery of this photo.
7

r
This sparked an investigation wherein Mr. Hansen was indicted for ThirdDegree Rape, First-Degree Sexual Abuse, and two Counts of Possess/View Matter
Portraying Sexual Performance by Minor. After the initial indictment was issued a
superseding indictment was issued, wherein Mr. Hansen ultimately sat on trial for
two Counts of Third Degree Rape, Second Degree Unlawful Transaction With a
Minor, Third Degree Sodomy, two Counts of First Degree Sexual Abuse, three Counts
of Possessing/Viewing Matter Portraying a Sexual Performance by a Minor, and six
Counts of Use of a Minor in a Sexual Performance..
The Commonwealth initially alleged that, On or about December 23, 2017 in McCracken County,
Kentucky, [Mr. Hansen] committed the offense of ThirdDegree Rape when, being twenty-one (21) years of age or
more, he engaged in sexual intercourse with [Anna], a
minor less than sixteen (16) years of age (Count I);
On or about December 23, 2017 □ [he] committed the
offense of First-Degree Sexual Abuse when he subjected
[Anna], to sexual contact by forcible compulsion (Count II).
On or about July 13, 2016 0 [he] committed the offense of
Possess/View Matter Portraying Sexual Performance by
Minor when, having knowledge of its content, character,
and that the sexual performance is by a minor, he
knowingly had in his possession or control matter which
visually depicted an actual sexual performance by a minor
(Count III);
On or about January 16, 2018 D [he] committed the offense
of Possess/View Matter Portraying Sexual Performance by
Minor when, having knowledge of its content, character,
and that the sexual performance is by a minor, he
knowingly had in his possession or control matter which
visually depicted an actual sexual performance by a minor
(Counts IV). (See Indictment in Appendix).
This indictment was followed by a superseding indictment wherein the
Commonwealth alleged that,

8

On or about December 23, 2017 in McCracken County,
Kentucky, [Mr. Hansen] committed the offense of ThirdDegree Rape when, being twenty-one (21) years of age or
more, he engaged in sexual intercourse with [Anna], a
minor less than sixteen (16) years of age (Count I);
Between the dates of August 1, 2017 and October 31, 2017,
D [he] committed the offense of Third-Degree Rape when,
being twenty-one (21) years of age or more, he engaged in
sexual intercourse with [Anna], a minor less than sixteen
(16) years of age (Count II);
Between the dates of August 1, 2017 and December 24,
2017, D [he] committed the offense of Second-Degree
unlawful transaction with a Minor when he knowingly
induced, assisted, or caused [Anna] a minor, to engage in
illegal controlled substances activity involving marijuana
(Count III).
Between the dates of August 1, 2017 and December 24,
2017 D [he] committed the offense of Third-Degree Sodomy
when, being twenty-one (21) year's of age 'or'more, he
engagedin deviate sexual intercourse with [Anna], a minor
less than sixteen (16) years of age (Count IV);
On or about December 23, 2017 □ [he] committed the
offense of First-Degree Sexual Abuse when, being twentyone (21) years of age or more, he subjected [Anna], a minor
less than sixteen (16) years of age, to sexual contact (Count
V).
Between the dates of August 1, 2017 arid December 24,
2017 D [he] committed the offense of First-Degree Sexual
Abuse when, being twenty-one (21) years of age or more, he
subjected [Anna], a minor less than sixteen (16) years of
age, to sexual contact (Count VI).
On or about July 13, 2016 D [he] committed the offense of
Possess/View Matter Portraying Sexual Performance by
Minor when, having knowledge of its content, character,
and that the sexual performance is by a minor, he
knowingly had in his possession or control matter which
visually depicted an actual sexual performance by a minor
(Count VII);
On or about September 1, 2017 D [he] committed the
offense of Possess/View Matter Portraying Sexual
Performance by Minor when, having knowledge of its
content, character, and that the sexual performance is by a
minor, he knowingly had in his possession or control

9

matter which visually depicted an actual sexual
performance by a minor (Count VIII);
On or about January 16, 2018 D [he] committed the offense
of Possess/View Matter Portraying Sexual Performance by
Minor when, having knowledge of its content, character,
and that the sexual performance is by a minor, he
knowingly had in his possession or control matter which
visually depicted an actual sexual performance by a minor
(Counts IX, XII-XV);
On or about December 16, 2017 D [he] committed the
offense of Use of a Minor (Under 16) in a Sexual
Performance when, he employed, consented to, authorized
or induced a minor, less than sixteen (16) years of age, to
engage in a sexual performance (Count X);
On or about December 15, 2017 D [he] committed the
offense of Use of a Minor (Under 16) in a Sexual
Performance when, he employed, consented to, authorized
or induced a minor, less that sixteen (16) years of age, to
engage in. a sexual performance (Count XI). (See
Superseding Indictment in Appendix).
At trial, Anna made numerous allegations against Mr. Hansen, inter alia that
while looking through her phone one day he found a nude photo of her and sent it to
his phone from hers. Anna claimed that Mr. Hansen was always asking her for nude
photos of herself and would offer things of value in exchange for nude photos. She
claimed that she would accept Mr. Hansen’s offers but after receiving payment would
refuse to send the photos. Anna claimed that she had never sent any nude photos to
Mr. Hansen but on multiple occasions admitted that she had sent nude photos to
other people.
Approximately 1-18-00 into an interview on March 16, 2018 Anna admitted
that she took nude photos and videos and sent them to other people. Approximately
1-20-00 into this interview Sariah stated that Anna was caught sending nude photos
to other people at nine years old. Approximately 4^00 into an interview on January

10

18, 2018 Anna admitted that she had sent nude photos to her boyfriend. In an
interview on May 31, 2018 at approximately 12-04 PM Anna admitted taking nude
photos for other people. When the police attempted a controlled phone call between
Sariah and Mr. Hansen on January 18, 2018 Sariah acknowledged that Anna had
sent nude photos to over 1,000 people.
Although, not mentioned at trial, Anna had previously falsely accused Mr.
Hansen of “touching” her in an attempt to get out of trouble. Anna admitted this in
an interview on March 28, 2018. This information would have been extremely
relevant and the basis of Mr. Hansen’s defense2 considering that he caught Anna and
one of his sons having sex not long before the nude photo was found on his phone.
Anna and Mr. Hansen’s son begged him not to tell Anna’s mother but Mr. Hansen
chose to inform her of the situation nonetheless. This resulted in Anna again being
in trouble with her mother for her ongoing sexual acts.
Prior to trial, the Commonwealth moved the Court to exclude evidence of
Anna’s other sexual conduct and sexual predisposition arid’on November 2, 2018 the
Court Entered an Order excluding such evidence. (See Motion and Order in
Appendix). However, at trial on November 26, 2018, the Commonwealth introduced
and opened the door to the very evidence it previously moved the Court to exclude.
The Commonwealth asked its witness, Anna’s mother Sariah to read a text message
Mr. Hansen sent her wherein he said “I don’t know why she sent it to me. I didn’t ask

2 Mr. Hansen was not aware that the nude photo was sent to his phone and thus could not have
knowingly been in possession of it.
11

r

her for it She probably sent it to the wrong person. She sends nudes to everyone.”2.
This presumably led the jury to the belief that Mr. Hansen had knowledge that he
possessed this photo on his phone, which in fact he did not know he was in possession
of.
As the Commonwealth opened the door to this evidence Mr. Hansen’s counsel
requested the Court allow him to cross-examine Sariah concerning Anna previously
sending nude photos to other people, curative admissibility now being necessary. The
Court ruled that although the Commonwealth just.opened the door to this evidence,
it did not warrant the Court to allow Mr. Hansen’s counsel to cross-examine Sariah
concerning Anna sending nude photos to other people. The Court ignored the fact that
the Commonwealth opened the door to this evidence and simply stated that it was
not going to change its earlier ruling.
.

. _

In misapplying the Rape Shield (KRE 412) to prohibit defense counsel from

eliciting this relevant and constitutionally necessary testimony, the trial court
impeded Mr. Hansen’s right to present a complete defense to the charged offenses by
explaining to the jury that Anna had previously made false allegations against him
as well as explaining why Anna would be inclined to again make false allegations of
sexual abuse against him. Mr. Hansen was also precluded from explaining to the jury
that the nude photo was likely sent to him by mistake and that he was completely
unaware that he was in possession of it.4 Mr. Hansen was effectively left with no

3 As the trial exhibits were sealed Mr. Hansen moved the Court to unseal the exhibits and provide
him a copy. The Court denied Mr. Hansen’s Motion and as a result he is unable to include a copy of
this exhibit with his Petition. (See Motion to Unseal and Order Denying in Appendix).
4 Further, the Commonwealth did not and could not prove that Mr. Hansen ever viewed this photo.
12

-)

plausible defense.to these charges and as a result was convicted and sentenced to 18
years imprisonment for crimes he did not in fact commit.
REASONS FOR GRANTING THE PETITION
As stated in Rule 10 of the Rules of the Supreme Court of the United States,
Review on a Writ of Certiorari is not a matter of right, but of judicial discretion. A
petition for a Writ of Certiorari, will be granted only for compelling reasons. Mr.
Hansen presents compelling reasons for the Court to grant his Petition, among which
are that a state court of last resort (the Kentucky Court of Appeals) has decided an
important federal question in a way that conflicts with the decisions of other state
courts of last resort and of United States courts of appeals. Further, the Kentucky
Court of Appeals has decided an important federal question in a way that conflicts
^;

with relevant decisions of this Court. Mr. Hansen believes the following argument
justifies this Court granting his Petition'
The right of a defendant in a criminal trial to confront and cross-examine the
witness(s) against him is guaranteed by the Sixth and Fourteenth Amendments to
the United States Constitution and can only be infringed upon in certain narrow
instances which in this case did not exist. By prohibiting defense counsel from
questioning Sariah and other witnesses concerning Anna’s previous sending of nude
photos as well as her previously making false allegations against him, the trial court
violated Mr. Hansen’s right to present a complete defense, in that in attempting to
send the nude photo to another person Anna sent it to Mr. Hansen by mistake and
that he was completely unaware that he even possessed this photo.

13

>

Had the Court allowed this line of questioning the witnesses would have
testified that Anna did in fact send nude photos to other people, and had been doing
so for a long period of time, the jury also would have been informed of the fact that
Anna admitted that she previously made false allegations of sexual abuse against Mr.
Hansen in an attempt to get out of trouble. Had the jury received this testimony and
been fully informed of Anna’s previous sexual conduct and sexual predisposition,
coupled with her . admittance to making previous false allegations against the
defendant, the jury likely would have believed Mr. Hansen and found him not guilty
on all Counts. This testimony, coupled with the fact that he recently caught Anna
.having sex with one of his sons and had told Anna’s mother Sariah, reasonably would
have led the jury to conclude.that these allegations like the previous allegations were
false and nothing more than an attempt to draw the attention away from her own
misconduct. The outcome of the trial would have been different beyond a reasonable
doubt.
,Kentucky’s Rape Shield (Kentucky-Rules of Evidence, Rule 412) . generally
precludes evidence offered to prove that any alleged victim engaged in other sexual
behavior as well as evidence offered to prove any alleged victim’s sexual
predisposition. However, there are certain exceptions in criminal cases, among which
are- (A) evidence of specific instances of sexual behavior by the alleged victim offered
to prove that a person other than the accused was the source of semen, injury, or
other physical evidence; (B) evidence of specific instances of sexual behavior by the
alleged victim with respect to the person accused of the sexual misconduct offered by

14

the accused to prove consent or by the prosecution; and (C) any other evidence directly
pertaining to the offense charged.
Before this type of evidence may be admitted the party intending to offer such
evidence must- (A) file a written motion at least fourteen (14) days before trial
specifically describing the evidence and stating the purpose for which it is offered
unless the court, for good cause requires a different time for filing or permits filing
during trial; and (B) serve the motion on all parties:and notify the alleged victim or,
when appropriate, the alleged victim’s guardian or representative. Also, before
’

admitting evidence under this rule the court must conduct a hearing in camera and
afford the victim and parties a right to attend and be heard.
KRE 412 was enacted in 1990. Prior to it's enactment the rape shield was
codified in Kentucky Revised Statutes § 510.145. This Court previously addressed the
rape shield in Olden v. Kentucky, 488 U.S. 227 (1988) granting Certiorari to the
Kentucky Court of Appeals and^reversing Olden’s conviction because the Court
violated his Sixth and Fourteenth Amendment rights to confront and cross-examine
his accuser. This Court held that,
“[t]he Kentucky Court of Appeals failed to accord proper
weight to Petitioner’s Sixth Amendment right ‘to be
confronted with the witnesses against him’. That right,
incorporated in the Fourteenth Amendment and therefore
available in state proceedings, Pointer v. Texas, 380 U.S.
400 (1965), includes the right to conduct reasonable crossexamination. Davis v. Alaska, 415 U:S. 308, 315-316
(1974).’’
Most states require that when exclusion of such evidence would serve to violate
the defendant’s Constitutional rights, the evidence must be admitted. The Supreme

15

Court of Connecticut held in State v. Wright, 320 Conn. 781, 816-17, 135 A. 3d 1
(2016) that the State’s rape shield must yield to the defendant’s Constitutional rights^
The Florida Supreme Court has held that if the Rape Shield precludes a defendant
from presenting a full and fair defense, “the statute would have to give way to [the
defendant’s] Constitutional rights.” (Roberts v. State, 510 So. 2d 885, 892 (Fla. 1987)).
West Virginia has held that “the Rape Shield Statute is expressly designed to yield
to Constitutional protections that assure fair trials with just outcomes.” (State v.
/ Guthrie, 205 W. Va. 326, 337, 518 S.E. 2d 83, 94 (1999) (quoting People v. Hill, 289
Ill. App. 3d 859,. 862, 225 Ill. Dec. 244, 247, 683 N.E. 2d 188, 191 (1997)).
The Supreme. Court of Massachusetts, has “recognized that where the rape
, shield statute is in conflict with a defendant’s constitutional right to present evidence .
that might lead the jury to find that a Commonwealth witness is lying or otherwise
unreliable, the statutory prohibition, must give way to the constitutional right.
(Commonwealth v. Polk, 462 Mass. 23, 37*38, 965 N.E. 2d 815 (2012)). The New
Mexico Supreme Court held in State v. Johnson, NMSC36, P 24, 123 N.M. 640, 944
P. 2d 869 “[i]f application of the rape shield law or rule would conflict with the
accused’s confrontation right,if it operates to preclude the defendant from presenting
a full and fair defense, the statute and rule must yield.”
“[T]he Rape Shield Statute d[oes] not bar evidence of a victim’s sexual conduct
if the evidence [i]s offered for a purpose other than to attack the victim’s morality.”
(State v. Grovenstein, 340 S.C. 210, 216, 530 S.E. 2d 406, 409 (Ct. App. 2000) (quoting
State v. Lang, 304 S.C. 300, 301, 403 S.E. 2d 677, 678 (Ct. App. 1991)). The Rape

16

i

Shield Statute “was not designed to shield prosecutrix from the effects of her own
inconsistent statements which cast a grave doubt on the credibility of her story.”
(State v. Younger, 306 N.C. 692, 697, 295 S.E. 2d 453, 456 (1982)). The Supreme
Court of Maine has recognized, however, that the state’s interest in protecting victims
of sexual abuse “is neither absolute nor paramount.” Rather, the state’s interest must
be weighed against constitutional right, emanating from the right of confrontation
and the rights to compulsory process and to due process, to be afforded a meaningful
- opportunity to'present a complete defense. (State v. Jacques, 558 A. 2d 706, 708
(1989) (citing Davis v. Alaska, 415 U.S. 308, 39 L. Ed. 2d 347, 94 S. Ct. 1105 (1974)
' (the state’s interest in protecting Juvenile offender does not take precedence over
defendant’s right to effectivelycross-examine)). The Court in Jacques also noted that
when a prosecutor opens the door to evidence otherwise inadmissible pursuant to
Rule 412 the admission of a defendant’s evidence to the contrary may be
• constitutionally required. Id. at 708.
” In State v. McCoy, 274 S.C. 70, 72 (1979), the Supreme Court of South Carolina
held “we recognize that generally the right of counsel to cross-examine a prosecuting
witness-is of constitutional dimensions. Normally, cross-examination is essential to a
fair trial as guaranteed by the Sixth Amendment and due process as required by the
Fourteenth Amendment.” This Court held in the case of Smith v. Illinois, 390 U.S.
129, 131, 88 S. Ct. 748, 749*750, 198 L. Ed. 2d 956 (1968), “As the court in Pointer [v.
state of Texas, 380 U.S. 400, 403, 85 S. Ct. 1065, 1068, 13 L. Ed. 2d 923], ‘It cannot
seriously be doubted at this late date that the right of cross-examination is included

17

in the right of an accused in a criminal case to confront the witnesses against him.’
380 U.S. at 404, 85 S. Ct. at 1068. Even more recently we have repeated that ‘[a]
denial of cross examination without waiver * * would be constitutional error of the
first magnitude and no amount of showing of want of prejudice would cure it.’
Brookhart v. Jam's, 384 U.S. 1, 3, 86 S. Ct. 1245, 1246, 16 L. Ed. 2d 314.” The
defendant’s right to due process of law is implicated by the application of a rule that
would exclude.relevant, exculpatory evidence. (People v. Stanaway, 446 Mich. 643,
- 662-680; 521 N.W. 2d 557 (1994)).
-, This Court has held that “[w]hen a state rule of evidence conflicts with the
.

right [of the accused] to present witnesses, . the. rule may -not be applied
mechanistically to defeat the ends of justice’ but must meet the. fundamental
standards of due process. (Rock v. Arkansas, 483 U.S. 44, 55, 107 S. Ct. 2704, 97 L.
Ed. 2d, 37 (1987) (quoting Chambers v. Mississippi, 410 U.S. 284, 302,. 93 S. Ct. 1038,
35 L.. Ed. 2d 297.(1973))). “To the extent that [the rape-shield statute] operates to
prevent a criminal defendant from presenting relevant evidence, the defendant’s
ability, to confront adverse witnesses and present a defense is diminished.” (Michigan
v. Lucas, 500 U.S. 145, 111 S. Ct. 1746, 114 L. Ed. 2d 205 (1991)).
The “opening the door” doctrine comprises two doctrines governing the
admissibility of evidence. (State vf Gaudet, 166 N.H. 396, 97 A. 3d 640 (2014))
(quotations omitted). The first doctrine, “curative admissibility”,. applies when
inadmissible prejudicial evidence has been erroneously admitted, and the opponent
seeks to introduce testimony to counter the prejudice. Id. (quotation omitted). The

18

*

'■

second doctrine, “specific contradiction”, is more broadly applied to situations in
which one party has introduced admissible evidence that creates a misleading
advantage and the opponent is then permitted to introduce previously suppressed or
otherwise inadmissible evidence to counter the misleading advantage. Id. (quotation
omitted). (State v. Mazzaglia, 169 N.H. 489, 495 (2016)).
The Supreme Court of North Carolina held in State v. Degree, 322 N.C. 302
306 (1988) that if the state “opens the door” to such evidence of the victim’s sexual
conduct with other people the defendant may request a Rule hearing to determine
- the admissibility of otherwise inadmissible evidence in order to impeach the
complainant. “The third exception, [to ‘ Virginia’s rape Shield statute] permits
'evidence of specific sexual conduct if ‘offered to rebut evidence of the complaining
'■ 'witness’s prior sexual conduct introduced by the prosecution’ D If the Commonwealth
opens the door to otherwise inadmissible evidence, the defendant may introduce
contrary evidence over the prosecutor’s objection.” (Commonwealth v. Beverly, 52 Va.
Cir. 255, 257 (2000)).
Even Kentucky’s own Courts have rendered Opinions in contradiction with the
holding in this case. The Kentucky Supreme Court held in Perry v; Commonwealth,
390 S.W. 3d 128 (Ky. 2012), that,
“[i]n any criminal case important constitutional rights are
at stake, including the right to confrontation and due
process, and the defendant’s continued liberty is at issue.
In all criminal cases, the defendant has the right to make
a complete defense. (See Holmes v: South Carolina, 547
U.S. 319, 324, 126 S. Ct. 1727, 164 L. Ed. 2d 503 (2006)).
In Dennis v. Commonwealth, 306 S.W. 3d 466, 473-474
(Ky. 2010) the Court held that the rules of evidence, of

19

'

course, may not be construed so as to' usurp [the right to
confrontation], and thus, although the United States
Supreme Court has emphasized that the state and federal
rule makers have broad latitude ‘to establish rules
excluding evidence from criminal trials,’ United States v.
Scheffer, 523 U.S. 303, 308, 118 S. Ct. 1261, 140 L. Ed. 2d
413 (1998), and that trial judges enjoy wide latitude ‘to
impose reasonable limits on cross-examination based on
concerns about, among other things, harassment,
prejudice, confusion of the issues, the witness’ safety, or
interrogation that is repetitive or only marginally
relevant,’ Delaware v. Van Arsdall, 475 U.S. 673, 679, 106
S. Ct. 1431, 89 L. Ed. 2d 674 (1986), the court has also
declared that that latitude has limits’ ‘whether rooted
directly in the Due process Clause of the Sixth
Amendment, the Constitution guarantees criminal
defendants a meaningful opportunity to present a complete
defense....This right is abridged by evidence rules that
infringfe] upon a weighty interest of the accused and are
arbitrary or disproportionate to the purposes they are
designed to serve’. Holmes v. South Carolina, 547 U.S. 319,
324, 126 s. Ct. 1727, 164 L. Ed 2d 503 (2006) (citations and
internal quotations omitted). ‘Arbitrary’ rules, the Court
explained in Holmes, are those, ‘that exclude D important
defense evidence but that d[o] not serve any legitimate
interests.’ Id at 325. In determining whether an exclusion
is ‘disproportionate’, other courts have weighed ‘the.
importance of the evidence to an effective defense, [and] the
scope of the ban involved,’ White v. Coplan, 399 F. 3d 18,
24, (1st Cir. 2005) (citing Davis v. Alaska, 415 U.S. 308, 94
S. Ct. 1105, 39 L. Ed. 2d 347 (1974) and Van Arsdall,
Supra, against any prejudicial effects the rule was
designed to guard against. Barbe v. McBride, 521 F. 3d 443
(4th Cir. 2008); LaJoie v. Thompson, 217 F. 3d 663 (9th Cir.
2000).’’

-

In D. W.H. V State 103 So. 3d 850 (2012) the Court of Criminal Appeals of
Alabama reversed and remanded the defendants conviction because the trial court
denied his request to present rebuttal witnesses in response to the testimony of the
State’s witness. In Johnson v. Moore, 472 F. Supp. 2d 1344 (2007) the United States

20

*

District Court for the Middle District of Florida, Tampa Division granted an inmates
habeas corpus petition where the Petitioner was denied the right to have compulsory
process for obtaining witnesses in his favor because the State arbitrarily denied him
the right to put his witness on the stand. The Court held that “[t]he Framers of the
Constitution did not intend to commit the futile act of giving to a defendant the right
to secure the attendance of witnesses whose testimony he had no right to use.” Id at
1357.
In People v. Williams, 55 Ill. App. 3d 752 (1977) the Appellate Court of Illinois,
First District, Fourth Division reversed and remanded because the Court violated the
'defendant’s Constitutional rights when it refused to allow the'defense witnesses to
testify. In State v. Colburn, 2016 MT 41 (2016) the Supreme Court of Montana
reversed and remanded where the district court erred in its application of the Rape
Shield Law to exclude evidence the defendant wished to present at trial. In Sussman
v. Jenkins, 636 F. 3d 329 (2011) the United States Court of Appeals for the Seventh
Circuit reversed and remanded with instructions where the Seventh Circuit found
that the defendant’s rights under the Confrontation Clause had been violated.
In State v. Shaw, 312 Conn. 85 (2014)—perhaps the most closely related case
to the case at bar—the Supreme Court of Connecticut reversed the defendant’s
conviction where the defendant’s Sixth Amendment right to present a defense was
violated when the trial court infringed upon the defendant’s right to present evidence
of the alleged victim’s prior sexual conduct. The Court found that the testimony the
defendant wished to present was not barred by the Rape Shield, that the Courts use

21

f

of the Rape Shield to preclude defendant from presenting his evidence violated his
Sixth Amendment right to present a complete defense, and that had the evidence
been present the outcome of the trial would have been different.
CONCLUSION
Mr. Hansen has an inviolate right protected by the Sixth and Fourteenth
Amendments to this Country’s Constitution to present a complete defense to any and
all criminal charges he faces and is put on trial for. This inalienable right was violated
when the trial court prohibited his counsel from questioning witnesses concerning
the alleged victim’s sending of nude photos to other individuals after the
Commonwealth opened the door .to this evidence through its. witness. The Court’s
refusal to allow defense counsel to cross-examine the; witness concerning her
testimony and the alleged victim’s,previous sexual conduct barred Mr. Hansen from
presenting a complete defense to the crimes he was charged with committing.
Had the trial court allowed defense counsel to examine the witnesses, counsel .
would have elicited testimony that the alleged victim had for a long period of time .
been in the habit of sending nude photos to multiple people and that she previously
made false allegations that Mr. Hansen had sexually abused her. Mr. Hansen’s
defense that Anna likely sent this photo to him by mistake and that he was
completely unaware that he even possessed the photo would have been accepted by
the jury and he would have been acquitted of that charge.
Counsel would have followed by eliciting testimony regarding the alleged
victim’s previous false allegations against Mr. Hansen which she admitted that she

22

?

%

1

made up in an attempt to get out of trouble. The jury also would have heard testimony
that Mr. Hansen had recently caught Anna and one of his sons having sex and had
told her mother Sariah. Mr. Hansen’s defense that Anna made up these allegations
to shift attention away from herself and effectively “beat him to the punch” likely
would have been believed by the jury and it is reasonably likely that Mr. Hansen
would have been acquitted on all Counts.
The Opinion of the Kentucky Court of appeals Affirming Mr. Hansen’s
9 • ?«»•'•’

.

. conviction and finding no error in the trial court prohibiting this line of questioning
comparts from the general holdings of other state courts of last resort as well as other
United States courts of appeals and therefore, Certiorari should be granted in this
case. To allow this violation to go uncorrected would be of no advantage to our judicial
system and would effectively defeat the purpose and design of the system.
“If there is in each state a court of final jurisdiction, there
may be as many different final determinations on the same
point as there are courts. There are endless diversities in
the opinions of men. We often see not only different courts
but the judges of the same court differing from each other.
To avoid the confusion which would unavoidably result
from the contradictory decisions of a number of different
judicatories, all nations have found it necessary to
establish one court paramount to the rest, possessing a
general superintendence, and authorized to settle and
declare in the last resort a uniform rule of civil justice. This
is the more necessary where the frame of government is so
compounded that the laws of the whole are in danger of
being contravened by the laws of the parts” (Alexander
Hamilton, Federalist No. 22, December 14, 1787).
APPENDIX
Motion to Unseal

App. 1-2

23

V'*

Order Entered November 25, 2020 Denying Motion to Unseal

App. 3-4

Indictment

.App. 5*6

Superseding Indictment

.App. 7*11

Commonwealth’s 412 Motion

App. 12*13

Order Entered November 2, 2018 Excluding 412 Evidence

App. 14*15

Final Judgement Entered January 16, 2019

App. 16-19

Kentucky Court of Appeals Opinion Rendered July 31, 2020..,

App. 20*35

24

*

